TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Informants’ Rewards Program Needs
                   More Centralized Management Oversight



                                             June 2006

                            Reference Number: 2006-30-092




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 6, 2006


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Informants’ Rewards Program Needs More
                             Centralized Management Oversight (Audit # 200530022)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Informants’
 Rewards Program. The overall objective of this review, initiated at the request of the Senate
 Finance Committee, was to determine whether the IRS uses its Informants’ Rewards Program as
 a viable tool to identify, investigate, and address potential tax law violations with equitable
 rewards for cooperating informants.

 Synopsis
 The IRS uses its Informants’ Rewards Program to administer the authority provided by Internal
 Revenue Code Section 7623 (2004) to make payments to private citizens for assistance in
 “(1) detecting underpayments of tax, and (2) detecting and bringing to trial and punishment
 persons guilty of violating the internal revenue laws.” Rewards are paid as a percentage of the
 taxes, fines, and penalties collected based on the relationship of the informant’s information to
 the recovery. Rewards can also be paid on amounts collected prior to receipt of the information
 if the information leads to the denial of a claim for refund that otherwise would have been paid.
 This Program has been an effective method of identifying and collecting unpaid taxes. From
 Fiscal Years (FY) 2001 through 2005, over $340 million in taxes, fines, penalties, and interest
 were recovered based on information obtained through the Informants’ Rewards Program, with
 rewards of over $27 million paid to informants.
 The Informants’ Rewards Program has significantly contributed to the IRS’ efforts to enforce tax
 laws, but additional management focus could enhance the effectiveness of the Program as an
 enforcement tool and make the process more accommodating to informants. Our analysis of IRS
 data indicated that examinations initiated based on informant information were often more
                      The Informants’ Rewards Program Needs More Centralized
                                       Management Oversight



effective and efficient than returns initiated using the IRS’ primary method for selecting returns
for examination.1
However, we found that a lack of standardized procedures and limited managerial oversight
resulted in control weaknesses over the Program. We reviewed a judgmental sample of 22 paid
claims for reward and 69 rejected claims for reward processed at 3 of the 5 Informants’ Claims
Examiner (ICE) units2 in operation during FY 2005. We noted that each ICE unit maintained its
own records because a nationwide database of informant claims does not exist. For the paid
informant claims in our sample, we found that 45 percent of the case files reviewed had
problems with basic control issues (missing copies of key forms, no record of letters to
informants, etc.), and we were unable to determine the justification for the reward percentage
awarded to the informant in 32 percent of the cases. For the rejected informant claims in our
sample, we were unable to determine the rationale for the reviewer’s decision to reject the claim
in 76 percent of the cases reviewed.
We also found that an average of over 7 ½ years passed between the filing of the initial claim by
the informant and the payment of the reward. We observed lapses in the monitoring of
taxpayers’ accounts for payment activity, which may have contributed to delays. For the rejected
claims in our sample, an average of over 6 ½ months elapsed between the date of the claim and
the letter to the informant rejecting the claim. We observed instances of lengthy delays in the
processing of rejected claims, such as unexplained delays between the receipt of the claim and
the initial or subsequent review of the claim by ICE unit personnel.
The lack of centralized and active management oversight of the Program increases the risk of
errors such as improper payment of rewards or incorrect rejection of valid claims. Additional
management focus could also assist in reducing the processing time for paid claims, which
would make the Program more attractive to future informants wishing to report violations of tax
laws.

Recommendations
We recommended the Deputy Commissioner for Services and Enforcement centralize
management of the Informants’ Rewards Program to increase oversight of the Program and
standardize the processing of informant claims. We also recommended the Deputy
Commissioner for Services and Enforcement ensure a detailed nationwide database of informant



1
  The IRS uses the Discriminant Index Function, which is a mathematical technique used to classify income tax
returns for examination potential by assigning weights to certain basic return characteristics.
2
  We visited the ICE units at the IRS Campuses in Brookhaven, New York; Ogden, Utah; and
Philadelphia, Pennsylvania. The other ICE units were located at the IRS Campuses in Cincinnati, Ohio, and
Memphis, Tennessee.
                                                                                                                2
                   The Informants’ Rewards Program Needs More Centralized
                                    Management Oversight



claims is developed and implemented to provide increased visibility of the processing and
disposition of informant claims.

Response
IRS management agreed with our recommendations. Management’s response stated that the IRS
had conducted its own review of the Informants’ Rewards Program in 2005 and was taking a
number of steps to improve the management and oversight of the Program. These steps include
designating an Informants’ Rewards Program coordinator for each operating division,
establishing a National Oversight Committee for the Informants’ Rewards Program,
consolidating informant claims processing at the Ogden Campus, and implementing a nationwide
web-based system to track, monitor, and control informant claims. Management’s complete
response to the draft report is included as Appendix VII.
Copies of this report are also being sent to IRS officials affected by the report recommendations.
Please contact me at (202) 622-6510 if you have questions or Curtis W. Hagan, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-3837.




                                                                                                 3
                          The Informants’ Rewards Program Needs More Centralized
                                           Management Oversight




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Informants’ Rewards Program Has Aided in the Recovery
          of a Substantial Amount of Revenue at a Minimal Cost ..............................Page 3
          The Effectiveness of the Informants’ Rewards Program Is Limited
          by a Lack of Detailed Policies and Procedures and
          Centralized Management Oversight .............................................................Page 5
                    Recommendations 1 and 2: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Application for Reward for Original Information ...............Page 15
          Appendix V – Form Letter to Notify Informant of Rejection of Claim .......Page 17
          Appendix VI – Form Letter to Notify Informant of Receipt of Claim .........Page 18
          Appendix VII – Management’s Response to the Draft Report.....................Page 19
                      The Informants’ Rewards Program Needs More Centralized
                                       Management Oversight




                                            Background

Section (§) 7623 of the Internal Revenue Code1 authorizes payment of rewards for “(1) detecting
underpayments of tax, and (2) detecting and bringing to trial and punishment persons guilty of
violating the internal revenue laws.” The Internal Revenue Service (IRS) administers this
authority through its Informants’ Rewards Program. This Program is unrelated to the rewards2
paid to private citizens who bring suit for violations of the Federal False Claims Act3 because the
violations of the Internal Revenue Code were specifically excluded from the scope of the False
Claims Act.4
The IRS receives information about potential tax violations in the mail, over the telephone, or
from visits to IRS walk-in offices. Generally, an IRS employee
receiving an allegation of a potential tax violation will record the      The Informants’ Rewards
information on an Information Report Referral (Form 3949). IRS          Program provides rewards for
procedures instruct employees not to solicit or encourage an           concerned citizens who supply
informant to provide information in exchange for a reward.            information   to the IRS that leads
                                                                      to the detection and punishment
However, if the informant indicates that he or she wants a reward,           of tax law violations.
the IRS employee will provide Rewards for Information Given to
the Internal Revenue Service (Publication 733) and an
Application for Reward for Original Information (Form 211)5 to the informant.
Instructions on the back of Form 211 direct informants to submit the completed Form to the IRS
campus6 servicing their State.7 Upon reaching the campus, the form is routed to the Informants’
Claims Examiner (ICE) staff at the campus, which performs an initial evaluation of the reward
claim. If the Form 211 does not contain information that warrants further action, the reward
claim should be rejected and the ICE staff will issue a rejection letter8 to the informant. If the




1
  Internal Revenue Code § 7623 (2004).
2
  Under 31 United States Code (U.S.C.) § 3730 (1994), a private plaintiff may be entitled to between 15 percent and
30 percent of the proceeds of a successful action or settlement for a violation of the False Claims Act.
3
  31 U.S.C. § 3729 (2002).
4
  31 U.S.C. § 3729(e) (2002).
5
  See Appendix IV for a copy of this Form.
6
  IRS campuses perform submission processing, accounts management, and compliance services for designated
customer segments.
7
  At the time of our review, the IRS had Informants’ Claims Examiner (ICE) staffs at the IRS Campuses in
Brookhaven, New York; Cincinnati, Ohio; Memphis, Tennessee; Ogden, Utah; and Philadelphia, Pennsylvania.
8
  Internal Revenue Manual Exhibit 25.2.2-7 shows Letter 1010 (SC) can be used for this purpose. See Appendix V
for the text of this Letter.
                                                                                                           Page 1
                      The Informants’ Rewards Program Needs More Centralized
                                       Management Oversight



reward claim is not immediately rejected, the claim will be acknowledged,9 a case file
established, and a control number assigned to the reward claim. The ICE staff also performs
research on the alleged tax violator’s account to determine whether there is open examination or
collection activity. If an open case exists, the examiner should send a copy of the reward claim
and any information to the office conducting the ongoing activity. If the informant alleges
unreported income of $50,000 or more per year, the information should be routed to the Criminal
Investigation function Area Office for the area where the alleged tax violator resides.
For those informant reward claims with open examination or collection activity, the examination
or collection employee assigned to the case will complete a Confidential Evaluation Report on
Claim for Reward (Form 11369) to assess the significance of the information provided by the
informant and whether the informant is entitled to a reward. If the field employee determines
that a reward should be allowed, the reward percentage is determined by whether the information
directly led to the recovery (15 percent); indirectly led to the recovery (10 percent); or caused the
investigation but had no direct relationship to the determination of tax liability (1 percent). The
dollar amount of the reward is computed by multiplying the reward percentage by the amount of
taxes, fines, and penalties (but not interest) collected. Different reward percentages can be used
if the case involves multiple taxpayers and/or tax years. The reward amount must total at least
$100 to be paid and cannot exceed $2 million in total. The limits on the reward percentage and
dollar amount can be waived by the use of a special agreement between the informant and the
IRS, which must be approved by the IRS Commissioner or his or her delegate.
During hearings for the IRS Restructuring and Reform Act of 1998,10 some members of
Congress called for a provision to eliminate the Informants’ Rewards Program, believing it
resulted in unwarranted examinations of honest taxpayers. Although this provision was not
included in the final legislation, the IRS does not openly promote the Program. The public web
site (IRS.gov) does not contain a webpage explaining the Program, nor does the webpage for
reporting tax fraud mention the availability of rewards. However, information such as Form 211
and Publication 733 can be located by a search of the web site.
This review was performed at the Small Business/Self-Employed (SB/SE) Division National
Headquarters in New Carrollton, Maryland, in the Campus Compliance Services organization
and at the ICE staffs in the Brookhaven, Ogden, and Philadelphia Campuses, during the period
September 2005 through March 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.



9
  Internal Revenue Manual Exhibit 25.2.2-4 shows Letter 1891 (SC) can be used for this purpose. See Appendix VI
for the text of this Letter.
10
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                        Page 2
                       The Informants’ Rewards Program Needs More Centralized
                                        Management Oversight




                                      Results of Review

The Informants’ Rewards Program Has Aided in the Recovery of a
Substantial Amount of Revenue at a Minimal Cost
The Commissioner of the IRS annually provides information to Congress on the amounts
collected based on informant information and the rewards paid to informants. Figure 1 shows
the results reported to Congress for the past 5 years.
     Figure 1: Rewards Paid to Informants and Taxes, Fines, Penalties, and Interest
     Recovered From Informants’ Information - Fiscal Years (FY) 2001 Through 2005

                   FY 2001          FY 2002         FY 2003          FY 2004         FY 2005          TOTALS

  Rewards
   Paid to        $3,337,035       $7,707,402      $4,057,476      $4,585,143       $7,602,685      $27,289,741
 Informants
Taxes, Fines,
& Penalties $30,774,539 $56,583,517 $48,379,562 $45,644,890 $68,126,671                             $249,509,179
 Recovered
   Interest
 Recovered
                 $13,249,794 $10,357,002 $13,176,613 $28,485,904 $25,550,935                        $90,820,248
 on Amount
    Above
Source: IRS annual reports to Congress.

From FYs 2001 through 2005, a total of $27,289,741 in rewards was paid to informants for the
recovery of $249,509,179 in taxes, fines, and penalties, for an average reward of 10.9 percent.
Interest of $90,820,248 was also recovered on the taxes, fines, and penalties recovered, although
rewards are not paid on interest recovered. Therefore, a total of $340,329,427 was recovered due
to informant information for FYs 2001 through 2005. Because IRS procedures generally require
that rewards be paid only in cases in which the informant’s information led to the examination of
an issue,11 it is reasonable to assume that the amounts recovered due to informants’ information
would not have been otherwise recovered by the IRS.



11
  Treasury Regulation § 301.7623-1 (1998) also allows rewards to be paid for information that leads to a denial of a
claim for refund that otherwise would have been paid
                                                                                                            Page 3
                      The Informants’ Rewards Program Needs More Centralized
                                       Management Oversight



IRS Restructuring and Reform Act of 1998 § 3804 required the Secretary of the Treasury to
produce a report on the use of Internal Revenue Code § 7623 and the results of its use.12 The
report, prepared by the IRS, was delivered in September 199913 and determined that the
cost/benefit ratio of the Program compared favorably with other IRS enforcement programs. The
report estimated the IRS incurred slightly over 4 cents in cost (including personnel and
administrative costs) for each dollar collected from the Informants’ Rewards Program (including
interest), compared to a cost of over 10 cents per dollar collected for all enforcement programs.
The IRS report also found that examinations initiated based on informant information had a
higher dollar yield per hour14 and a lower no-change15 rate, when compared to returns selected
using the IRS’ primary method of selecting returns, the Discriminant Index Function (DIF).16
The results from the final 3 years of the review are summarized in Figure 2.
     Figure 2: Comparison of Recommended Adjustment Dollars and No-Change
     Rates for Informant Examinations and DIF Returns - FYs 1996 Through 1998
                          ADJUSTMENT DOLLARS/HOUR                          NO-CHANGE RETURNS
        FYs 1996 -            Total                            Dollars                   No-         No-
          1998            Recommended             Total          per        Total      Change       Change
         Returns           Adjustments            Hours         Hour       Returns     Returns        %
       Informants’
                           $160,091,580          169,259        $946        5,292         648         12%
        Program

       DIF-selected       $7,358,908,430       13,418,772       $548       997,550     169,148        17%

     Source: IRS study dated September 1999.

Examinations initiated based on informant information continue to be more productive than
those initiated based on DIF scores. The examination results from the 3 most recent years for the
SB/SE Division, which conducts the vast majority of examinations based on informant
information, are shown in Figure 3.



12
   Pub. L. 105-206, title III, Sec. 3804, July 22, 1998, 112 Stat. 783.
13
   The Informants’ Project: A Study of the Present Law Reward Program, Internal Revenue Service, dated
September 1999.
14
   Dollar yield per hour refers to the total recommended adjustments to tax liability divided by the number of
examiner hours charged to examinations.
15
   For the purpose of this analysis, an examination of a return results in a “no-change” when the examination is
closed in the Audit Information Management System using Disposal Code 02 (no adjustments or changes to tax
liability).
16
   The DIF is a mathematical technique used to classify income tax returns for examination potential by assigning
weights to certain basic return characteristics.
                                                                                                            Page 4
                     The Informants’ Rewards Program Needs More Centralized
                                      Management Oversight



  Figure 3: SB/SE Division – Comparison of Recommended Adjustment Dollars
       and No-Change Rates for Informant Examinations and DIF Returns -
                             FYs 2003 Through 2005

                          ADJUSTMENT DOLLARS/HOUR                        NO-CHANGE RETURNS

                             Total                         Dollars                    No-      No-
                         Recommended           Total         per       Total        Change    Change
    FYs 2003 - 2005       Adjustments          Hours        Hour      Returns       Returns     %
      Informants’
    Program (SB/SE
                           $26,233,554        38,139        $688         727         152       21%
        Division
     examinations)
      DIF (SB/SE
        Division
     Revenue Agent         422,356,790       1,105,890      $382       15,832        4,435     28%
      Individual &
       Corporate)
  Source: Treasury Inspector General for Tax Administration analysis of IRS data.

Because examinations based on informants’ information involve taxpayers or issues that may not
have been otherwise selected by the IRS and are often more productive than examinations
initiated using the IRS’ usual methods, the Informants’ Rewards Program continues to contribute
to enforcement of the tax laws.

The Effectiveness of the Informants’ Rewards Program Is Limited by a
Lack of Detailed Policies and Procedures and Centralized
Management Oversight
The primary guidance for the Informants’ Rewards Program is found in Internal Revenue
Manual Section 25.2. This document contains general guidance for the administration of the
Program and the computation of rewards but does not include any provision for centralized
management oversight or review of the activities of the ICE units. As a result, each ICE unit has
traditionally operated as a semi-autonomous entity, attached to various other teams in the
Compliance Services organization at each campus. We visited three of the five ICE units in
operation in FY 2005 (Brookhaven, Ogden, and Philadelphia) and found that two of the units
were attached to classification teams, while the other was attached to a Tax Equity Fiscal
Responsibility Act team. Each ICE unit had different procedures for the processing of claims,
but only one unit had written documentation of these procedures.



                                                                                                     Page 5
                       The Informants’ Rewards Program Needs More Centralized
                                        Management Oversight



No nationwide database currently exists to allow management to track and monitor claims on a
nationwide basis, although SB/SE Division officials informed us that a system will be
implemented in the near future. Yearly reporting of consolidated results to Congress is done by
a coordinator at SB/SE Division Headquarters based on written input from each ICE unit. Each
of the three ICE units we visited tracked its claim inventory differently: one unit primarily used
a manual system and updated an online database periodically; the other two ICE units used
different online databases, supplemented by standalone computer spreadsheets.
The overall management of the Informants’ Rewards Program currently resides within the
Campus Compliance Services function within the SB/SE Division. A coordinator at the SB/SE
Division Headquarters is responsible for collecting and reporting certain information annually to
Congress but does not exert any managerial control over the operation of the ICE units. No other
personnel within this function devote significant time to the management of the Informants’
Rewards Program. In our discussions with ICE unit and SB/SE Division Headquarters
personnel, we were informed that there was no ongoing program to monitor the performance of
ICE units, such as operational reviews or management assistance visits.
The lack of standardized procedures and the limited managerial oversight were evident in the
results of our reviews of paid and rejected claims at the three ICE units included in our review.
We reviewed a judgmental sample of 22 paid claims for reward and 69 rejected claims for
reward processed at the 3 ICE units during FY 2005. For the informant claims paid in FY 2005,
we found that almost one-half (45 percent) of the case files reviewed had a problem with basic
control issues (missing copies of key forms, no record of letters to informants, etc.). For the
informant claims rejected in FY 2005, approximately 14 percent of the case files had similar
issues, including 4 files that an ICE unit could not locate, despite the fact that the claims were
listed on its database.
In addition to reviewing the basic recordkeeping at the ICE units, we reviewed the files of the
rejected cases to determine if the informants’ information received appropriate initial and
subsequent reviews. We evaluated whether basic evaluation steps were taken after the claims
were received, such as a review of the alleged tax violator’s account on the Integrated Data
Retrieval System17 to determine if there was open examination or collection activity against the
taxpayer(s) named in the informant’s allegation, and found no evidence of these steps in the files
for 59 percent of the rejected claims reviewed. We also reviewed the rejected claims to
determine if subsequent steps were taken, for example referring the information to the
appropriate entities, such as the Criminal Investigation function for evaluation and/or a field
examination function for determination of tax potential. We did not find evidence of such
referrals in 80 percent of the case files reviewed.


17
  The Integrated Data Retrieval System is an automated data base composed of information from several sources
that provides IRS employees instantaneous access to certain taxpayer accounts for research, data entry, and other
purposes.
                                                                                                            Page 6
                   The Informants’ Rewards Program Needs More Centralized
                                    Management Oversight



Finally, we reviewed both the paid and rejected claims to determine if the reviewer’s decision on
the ultimate action taken on the claim was justified, based on information in the case file. For a
paid claim, the most important decision is on the reward percentage granted to the informant; in
32 percent of the paid claims, we were unable to determine the justification for the percentage
granted. In most of these cases, the reviewers simply entered the percentage on the Form 11369
and did not provide any explanation for the decision.
For a rejected claim, the reason for rejection is of major significance. In 76 percent of the
rejected informant claims included in our review, we were unable to determine the rationale for
the reviewer’s decision to reject the claim, based on information in the case file. In most of these
cases, the reviewers simply noted their decisions in the case files and provided little or no
description of the rationale for the decisions.
As part of our review of rejected informant claims, we selected 30 rejected claims that alleged
tax law violations by taxpayers serviced by the Large and Mid-Size Business (LMSB) Division,
to determine if these claims received greater scrutiny due to the higher profile of the taxpayers
and presumably larger dollar amounts involved. We reviewed these informant claims for the
same attributes as the other rejected claims, which were primarily directed at individual and
small business taxpayers. We found the results were largely comparable for all attributes other
than the control of claims, as shown in Figure 4.




                                                                                             Page 7
                        The Informants’ Rewards Program Needs More Centralized
                                         Management Oversight



     Figure 4: Comparison of Results for Review of Rejected Claims Pertaining to
     LMSB Division Taxpayers to Results for Review of All Other Rejected Claims
                                       Rejected Claims         Number of Claims           Percentage of
                                       to Which Review           Not Meeting               Claims Not
                                         Item Applies             Standard               Meeting Standard
                                                    All                      All                       All
             Review Item:              LMSB        Others       LMSB        Others       LMSB         Others

          Was claim properly
                                          30          39           1            9          3%           23%
             controlled?

       Did claim receive proper
        initial evaluation after          30         3418         19           19          63%          56%
                 receipt?

          Was claim properly
                                         2919        2120         22           18          76%          86%
      screened for tax potential?


       Was the decision to reject
                                         2921        2122         21           17          72%          81%
         the claim justified?

     Source: Treasury Inspector General for Tax Administration reviews of FY 2005 rejected informant claims at the
     Brookhaven, Ogden, and Philadelphia Campus ICE units.

Rewards are offered both to encourage informants to provide information and, in some cases, to
compensate informants for risking their personal and business relationships by providing the
information. If the claims are not timely processed, the rewards may lose some of their
motivating value. Our review of the sample of 22 paid claims found that an average of over
7 ½ years passed between the filing of the initial claim by the informant and the payment of the
reward. Much of this delay was attributable to the fact that the law requires that rewards be paid



18
   Five rejected claims were not evaluated for this attribute because the ICE unit could not locate the files.
19
   One rejected claim was not evaluated for this attribute because the informant did not adequately document his or
her claim.
20
   Thirteen rejected claims were not evaluated for this attribute because the informant did not adequately document
his or her claim.
21
   One rejected claim was not evaluated for this attribute because the informant did not adequately document his or
her claim.
22
   Thirteen rejected claims were not evaluated for this attribute because the informant did not adequately document
his or her claim.
                                                                                                            Page 8
                      The Informants’ Rewards Program Needs More Centralized
                                       Management Oversight



only once the additional taxes, fines, and penalties have been collected from taxpayers.23
However, we also observed lapses in the monitoring of the taxpayer’s account for payment
activity for periods in excess of a year. The length of time required to receive payment for
claims may cause informants to be less willing to come forward, especially those that risk losing
their jobs by informing on their employers.
We also observed that the processing of rejected claims took a significant length of time, with an
average of over 6 ½ months between the date of the claim and the letter to the informant
rejecting the claim. We also observed instances of lengthy delays in the processing of rejected
claims, such as unexplained delays between the receipt of the claim and the initial or subsequent
review of the claim by ICE unit personnel.
In summary, although the Informants’ Rewards Program has significantly contributed to the
detection and punishment of tax law violations, additional management focus could enhance the
effectiveness of the Program. Additional management focus could assist in reducing the
processing time for claims, which would make the Program more attractive to future informants.
While our review of a sample of paid and rejected informant claims did not disclose any obvious
errors of a significant magnitude (i.e., improper payment of rewards or incorrect rejection of
valid claims), the lack of centralized and active management oversight of the Program increases
the risk of these errors and decreases the effectiveness of the Program as a useful enforcement
tool.

Recommendations
Recommendation 1: The Deputy Commissioner for Services and Enforcement should
centralize management of the Informants’ Rewards Program to increase oversight of the Program
and standardize the processing of informant claims.
        Management’s Response: IRS management agreed with this recommendation and
        stated that the Informants’ Rewards Program is being consolidated at the Ogden Campus.
        All Forms 211 received at any campus after April 26, 2006, are to be routed to the Ogden
        Campus for control and processing.
Recommendation 2: The Deputy Commissioner for Services and Enforcement should ensure
a detailed nationwide database of informant claims is developed and implemented to provide
increased visibility of the processing and disposition of informant claims.



23
  An informant can receive an early payment of a reward on the amounts collected by the IRS by agreeing to waive
his or her right to a reward on the amounts collected after the payment of the early reward.




                                                                                                         Page 9
           The Informants’ Rewards Program Needs More Centralized
                            Management Oversight



Management’s Response: IRS management agreed with this recommendation and
stated they are developing a web-based Informants’ Claims application that will be
accessible from the Ogden Campus and IRS Headquarters. This will facilitate response
to informant claims. The application is to be operational by December 31, 2006.




                                                                              Page 10
                      The Informants’ Rewards Program Needs More Centralized
                                       Management Oversight



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) uses its Informants’ Rewards Program as a viable tool to identify, investigate, and address
potential tax law violations with equitable rewards for cooperating informants. To accomplish
our objective, we:
I.      Interviewed managers and responsible officials at Small Business/Self-Employed
        Division Headquarters to obtain an overview of the Informants’ Rewards Program;
        Program statistics; and the coordination that takes place among the Informants’ Rewards
        Program, IRS Lead Development Center, and Criminal Investigation Division
        Confidential Informant Program.
II.     Reviewed Internal Revenue Code Section (§) 7623,1 the Internal Revenue Manual, and
        other documents to obtain an understanding of the parameters and procedures for the
        Informants’ Rewards Program.
III.    Analyzed statistical data from the IRS Informants’ Rewards Program for the past 5 fiscal
        years to determine information such as the numbers and amounts of rewards paid.
IV.     Obtained statistical performance data and other information about informant programs at
        the Department of Defense and the Department of Health and Human Services and
        discussed these programs with knowledgeable officials at the agencies.
V.      Discussed the IRS Informants’ Rewards Program with knowledgeable parties outside the
        IRS, such as informants and attorneys familiar with the Program, to determine whether
        there are opportunities to increase reporting of tax violations and whether the amount of
        the awards provides enough incentive for well-compensated professionals to become
        informants.
VI.     Selected a judgmental sample2 of 22 informant rewards paid in Fiscal Year (FY) 2005 at
        the 3 Informants’ Claims Examiner (ICE) units visited. We reviewed the case files to
        determine whether proper procedures were followed in processing the claims, whether

1
  Internal Revenue Code § 7623 (2004).
2
  A judgmental sample was used for this step due to the lack of a nationwide informant claims database, which
prevented us from obtaining an accurate and complete sampling universe. The IRS reported that 169 claims were
paid in full during Fiscal Year 2005, with an unknown number of additional partial payments. At each of the
3 Informants’ Claims Examiner (ICE) units visited, we selected the 2 cases with the largest payments for each
reward level (15 percent, 10 percent, and 1 percent), plus any special agreement cases with payments larger than
those made under the normal reward levels.
                                                                                                         Page 11
                      The Informants’ Rewards Program Needs More Centralized
                                       Management Oversight



        the criteria used to decide upon the reward percentage were reasonable, and the amount
        of time from the filing of the claims to issuance of the rewards.
VII.    Reviewed examination data for the cases selected in Step VI. to determine whether the
        reward percentage given to the informant complied with the criteria outlined in Part 25 of
        the Internal Revenue Manual and applicable sections of the Internal Revenue Code and
        Regulations.
VIII.   Visited ICE units at three IRS Campuses (located in Brookhaven, New York;
        Ogden, Utah; and Philadelphia, Pennsylvania) to determine whether informants’ reward
        claims were properly processed and evaluated.
        A. Interviewed the manager of each ICE unit to determine the actual procedures used to
           process informants’ claims for rewards.
        B. Selected a judgmental sample3 of 69 informant claims rejected in FY 2005 at the
           3 ICE units. We determined the information provided by the informant; the reason
           for rejection; the amount of time for the decision; the extent of communication, if
           any, with the informant; and whether the case was referred to the Criminal
           Investigation Division. We also evaluated whether the rejection was made in
           accordance with IRS procedures.
IX.     Validated the Revenue Agent examination data used in the review to the Table 37 for the
        appropriate IRS business unit. We did not establish the reliability of these data because
        extensive data validation tests were outside the scope of this audit and would have
        required a significant amount of time.




3
  A judgmental sample was used due to the lack of a nationwide informant claims database, which prevented us
from obtaining an accurate and complete sampling universe. The IRS reported a total of 3,193 claims rejected
during FY 2005. At each ICE unit visited, we randomly selected a sample of 10 rejected claims from a judgmental
pool of claims rejected in FY 2005. Additional sampling of rejected claims was required at one ICE unit. We also
randomly selected a sample of 30 rejected claims from a judgmental pool of claims rejected in FY 2005 relating to
taxpayers serviced by the Large and Mid-Size Business Division.
                                                                                                         Page 12
                  The Informants’ Rewards Program Needs More Centralized
                                   Management Oversight



                                                                              Appendix II

                 Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle Andersen, Director
Philip Shropshire, Director
L. Jeff Anderson, Audit Manager
Frank Dunleavy, Audit Manager
Robert Jenness, Lead Auditor
Lisa Stoy, Senior Auditor
Debra Mason, Auditor
Ali Vaezazizi, Auditor




                                                                                       Page 13
                 The Informants’ Rewards Program Needs More Centralized
                                  Management Oversight



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:C&L
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 14
                  The Informants’ Rewards Program Needs More Centralized
                                   Management Oversight



                                                                  Appendix IV

     Application for Reward for Original Information

The following Form is used by informants to apply for a reward.




                                                                       Page 15
The Informants’ Rewards Program Needs More Centralized
                 Management Oversight




                                                   Page 16
                   The Informants’ Rewards Program Needs More Centralized
                                    Management Oversight



                                                                                  Appendix V

Form Letter to Notify Informant of Rejection of Claim

The text of the following form letter (Letter 1010 (SC)) is generally used to notify an informant
of the rejection of his or her claim.

   (name of service center)
   (service center address)
   Person to Contact:
   Contact Telephone Number:
   Claim Number:
   (informant’s name)
   (informant’s address)
   Dear:
   We have considered your Form 211, Application for Reward for Original Information. We
   are sorry, but the information you furnished did not meet our criteria for a reward. We
   assure you that your information was carefully reviewed and evaluated before we made our
   decision.
   Federal disclosure and privacy laws prohibit us from telling you the specific reason for
   rejecting your claim. However, we can tell you that the most common reasons for not
   allowing a reward are:
   1. Your information did not cause an investigation or result in the recovery of taxes,
   penalties, or fines.
   2. The Internal Revenue Service (IRS) already had the information you provided.
   3. The taxes recovered were too small to warrant a reward. (Our policy states that we do not
   pay rewards less than $100.)
   Your claim will be reconsidered only if you have new information, not previously reviewed by
   the IRS, that has enough investigative potential to warrant further action. If you have
   information that meets this description, please send it to this office, to the attention of the
   above contact person, and ask us to reconsider your claim.
   There are no other administrative appeals available to you. If we deny your request for
   reconsideration, you must bring suit in the U.S. Court of Federal Claims if you wish to
   pursue the matter further.
   Although your information did not qualify for a reward, we thank you for participating in the
   Informants’ Claims for Reward program.
                                                 Sincerely,
                                                 Director, Service Center

                                                                                            Page 17
                   The Informants’ Rewards Program Needs More Centralized
                                    Management Oversight



                                                                                     Appendix VI

  Form Letter to Notify Informant of Receipt of Claim

The text of the following form letter (Letter 1891 (SC)) is generally used to notify an informant
of the receipt of his or her claim for reward.

   (name of service center)
   (service center address)
   Person to Contact:
   Contact Telephone Number:
   Claim Number:
   (Informant’s name)
   (Informant’s address)
   Dear:
   We received your claim (Form 211) in connection with the information you furnished about a
   tax matter and have assigned the above claim number. We will evaluate the information
   you provided as soon as possible to determine if an investigation is warranted and a reward
   is appropriate. Please retain this notice for future reference.
   It is important to understand that if we initiate an investigation as a result of your information,
   it could take several years until final resolution of all tax matters. This is especially true if the
   taxpayer exercises all administrative and judicial appeal rights. In addition, before the
   Internal Revenue Service (IRS) can pay a reward, we must collect any additional taxes,
   penalties, or fines recovered by reason of your information. Collection action could also
   take several years.
   At the conclusion of our review and evaluation, we will only be able to tell you whether or not
   the information you provided met the criteria for a reward. Federal disclosure and privacy
   laws prohibit us from informing you of specific actions we take or do not take with respect to
   your information. We hope you understand this restriction placed on the IRS, by law, and
   ask for your patience in this matter.
   We will notify you as soon as we complete all actions relating to your claim and determine
   whether your information qualifies you for a reward. If you change your address, please
   send us a completed Form 8822, Change of Address. You can get this form by calling
   1-800–TAX–FORM. If you request a status of your claim, please include the claim number
   with your request. Send it to this office, to the attention of the above contact person. Please
   keep in mind that we may only tell you whether or not your claim is still active.
   Thank you for participating in the Informants’ Claims for Reward program.
                                                   Sincerely,
                                                   Director, Service Center

                                                                                               Page 18
     The Informants’ Rewards Program Needs More Centralized
                      Management Oversight



                                                 Appendix VII

Management’s Response to the Draft Report




                                                        Page 19
The Informants’ Rewards Program Needs More Centralized
                 Management Oversight




                                                   Page 20
The Informants’ Rewards Program Needs More Centralized
                 Management Oversight




                                                   Page 21
